<html>
<title> - AMERICA'S HUMAN PRESENCE IN LOW-EARTH ORBIT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                        AMERICA'S HUMAN PRESENCE
                           IN LOW-EARTH ORBIT

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2018

                               __________

                           Serial No. 115-60

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov







                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
30-323 PDF                WASHINGTON : 2018                 












              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  MARK TAKANO, California
ROGER W. MARSHALL, Kansas            COLLEEN HANABUSA, Hawaii
NEAL P. DUNN, Florida                CHARLIE CRIST, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona























                            C O N T E N T S

                              May 17, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives                                                     4
    Written Statement............................................     5

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives                                                  6
    Written Statement............................................     8

Statement by Representative Brian Babin, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    12

Statement by Representative Ami Bera, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    14
    Written Statement............................................    16

                               Witnesses:

Mr. William Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Directorate, NASA
    Oral Statement...............................................    19
    Written Statement............................................    20

Dr. Bhavya Lal, Research Staff, Science and Technology Policy 
  Institute for Defense Analysis
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. Elizabeth R. Cantwell, CEO, Arizona State University Research 
  Enterprise (ASURE); Professor of Practice, School for 
  Engineering of Matter, Transport & Energy, Arizona State 
  University
    Oral Statement...............................................    41
    Written Statement............................................    43

Discussion.......................................................    49


             Appendix I: Answers to Post-Hearing Questions

Mr. William Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Directorate, NASA...................    70

Dr. Bhavya Lal, Research Staff, Science and Technology Policy 
  Institute for Defense Analysis.................................    75

Dr. Elizabeth R. Cantwell, CEO, Arizona State University Research 
  Enterprise (ASURE); Professor of Practice, School for 
  Engineering of Matter, Transport & Energy, Arizona State 
  University.....................................................    41

            Appendix II: Additional Material for the Record

Letters submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    84

 
                        AMERICA'S HUMAN PRESENCE
                           IN LOW-EARTH ORBIT

                              ----------                              


                         THURSDAY, MAY 17, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:03 a.m., in Room 
2318, Rayburn House Office Building, Hon. Lamar Smith [Chairman 
of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Good morning to you all, and welcome to today's hearing 
titled, ``America's Human Presence in Low-Earth Orbit.'' I'll 
recognize myself for an opening statement and then the Ranking 
Member.
    Our nation faces important questions about future space 
exploration. Will the International Space Station stop 
receiving federal support in 2025? If so, under what 
conditions? What is the future of America's human presence in 
low-Earth orbit? Beyond that, what is the future of human 
presence on the Moon and Mars?
    The International Space Station has been authorized and 
funded to operate until 2024. Decisions about the long-term 
future of the ISS impact the future of America's human space 
exploration program. Unless NASA's budget is significantly 
increased, there are not enough funds both to maintain direct 
federal support for the ISS and return American astronauts to 
the surface of the Moon in the 2020s. And without a sharp 
increase in funding for NASA, we cannot ensure American 
leadership in human deep space exploration in the next decade 
and beyond.
    NASA announced an ISS transition plan at the end of March. 
According to the proposal, the United States should not 
continue direct federal support for ISS operation beyond 2024. 
The private sector--commercial space--may well pick up where 
NASA left off.
    In addition to the transition of the ISS, a related but 
important question is the future of America's human presence in 
low-Earth orbit. After 2025, should Americans maintain some 
human presence in low-Earth orbit, even on a limited basis? 
But, having, quote, ``American human presence in low-Earth 
orbit,'' does not necessarily mean continuing to operate the 
ISS. Discussing continued human presence and continued 
operation of the ISS are related, but distinct subjects.
    Existing law can help guide this discussion. The 2017 NASA 
Transition Authorization Act reaffirms the principle of 
``continuity of purpose.'' It also establishes that extending 
human presence throughout the solar system is a long-term goal 
for NASA. It directs NASA to follow a steppingstone approach to 
exploration. This involves expanding human presence from low-
Earth orbit to the Moon, from the Moon to Mars, and then from 
Mars to other bodies throughout the solar system.
    The 2018 NASA Authorization Act was approved by the Science 
Committee on a bipartisan vote, and the act supports the 
Administration's transition plan in fiscal year 2019. It's my 
hope that this hearing will help us evaluate the transition of 
the ISS and continued American presence in low-Earth orbit.
    [The prepared statement of Chairman Smith follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. That concludes my statement, and the 
gentlewoman from Texas, the Ranking Member Ms. Johnson, is 
recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Good morning to all, and welcome to our distinguished 
witnesses. I'm pleased that you're holding this hearing, 
America's Human Presence in Low-Earth Orbit.
    In 1991, the House voted for the first time to reject an 
attempt to cancel the space station program. More attempts were 
made to cancel the space program in subsequent years, but each 
time, it was kept alive. Those votes to continue the space 
station weren't easy ones given a series of redesigns, cost 
growth, and other challenges with the program during that 
development.
    I mention this history, Mr. Chairman, because, had Congress 
not made a commitment to support the space station and later to 
extend its operations, we could well have missed acquiring 
essential knowledge about how to live and safely work in the 
low-Earth orbit and beyond. We also would have missed an 
opportunity to inspire our young people to excel, something 
that the International Space Station continues to do in 
classrooms across the Nation.
    I might add that the six school districts in my district 
have had the opportunity to have visits with astronauts in the 
space station, and they were all very, very excited. And I 
believe that out of that experience many of them will think of 
the future to use a background in STEM education.
    Without the International Space Station, would we have a 
place, a durable, multination, international partnership that 
has strengthened this nation, its global leadership, and the 
vision of peaceful cooperation in outer space? Would we have 
laid the groundwork for developing a commercial resupply 
service and soon a commercial crew transportation capability 
that can help enable sustained commercial engagement in low-
Earth orbit?
    Looking ahead, as we debate the future of the International 
Space Station, we find ourselves facing a decision of equal 
importance to the one we faced in 1991. The NASA Transition 
Authorization Act of 2017 established long-term goal of sending 
humans to Mars. We know that such a multi-decadal understanding 
will be challenging and expensive, and achieving it will be 
even more challenging if we are also continuing to support the 
estimated $3-3.3 billion annual cost of keeping the 
International Space Station operating.
    At the same time, the space station supports important 
research and engineering activities, both public and private, 
and provides a steppingstone for exploration. For that reason, 
the Transition Act also calls for an International Space 
Station transition plan to establish an orderly process by 
which alternative orbital platforms may be considered and 
potentially brought on as replacements for the International 
Space Station.
    Although we only recently received the plan, the 
Administration decided in its fiscal year 2019 budget request 
to propose ending direct federal funding of the International 
Space Station in 2025. This is a bold proposal and one that 
raises a lot of questions.
    Mr. Chairman, the future of International Space Station is 
of great consequence to our continued leadership in space 
exploration and utilization. Decisions--as it is--as to its 
funding should not be made lightly, not without sufficient 
information and debate. As members of the Science Committee, we 
need to roll up our sleeves, ask the right questions, and focus 
on the core issues needing our attention.
    In that regard, I hope this morning's hearing will shed 
light on, one, the cost of conducting research on the space 
station versus alternative model platform; whether the 
commercial market will be ready to support a purely commercial 
space station in 2025 without direct U.S. Government funding 
or, if not, what level of government funding would be needed? 
Three, whether a national laboratory in low-Earth orbit should 
be continued following the end of the space station operations 
and for the conditions and resources that would be needed to 
transition basic and applied biological and physical sciences 
research to a commercial or nongovernmental platform.
    In closing, Mr. Chairman, there's a lot we need to examine 
as we contemplate the future of the International Space 
Station. I hope this morning's discussion is just the first of 
a series of hearings so that committee members will have the 
chance to ask questions for the other International Space 
Station stakeholders who are not represented today. We will 
need that information if we are to move forward with a 
thoughtful and constructive NASA authorization bill.
    Thank you, and I yield back.
    [The prepared statement of Ms. Johnson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Chairman Smith. Thank you, Ms. Johnson.
    And the Chairman of the Space Subcommittee, the gentleman 
from Texas, Mr. Babin, is recognized.
    Mr. Babin. Thank you, Mr. Chairman.
    The International Space Station, or the ISS, is the crown 
jewel of America's human spaceflight program. As a 
representative of Johnson Space Center in Houston, I am proud 
of the leadership role that Johnson has with the ISS and 
American human space exploration in general. I'm keenly aware 
of the importance of the International Space Station to the 
hardworking professionals at JSC. For them, the ISS is more 
than just a program of record, it is part of their being. This 
is why I take with the utmost seriousness the questions our 
Committee must address on the future of the ISS and America's 
human spaceflight flight program.
    The Trump Administration is a very strong advocate for 
human space exploration, and I support the Administration's 
renewed focus. I agree in broad terms with the human 
exploration plans the Administration has outlined. I appreciate 
the Administration's invitation to discuss and mature plans for 
our civil space exploration program, including the ISS. 
However, we, as a Congress, have a responsibility to think 
through the issues on our own and reach our own conclusions, 
which is why we are here today.
    I believe that doing exploration right means that anywhere 
we establish a human presence in space, we must fulfill two 
main objectives. First, we must make that presence sustainable. 
Second, we must use that presence as a jumping-off point to 
extend our reach even further. This discussion, along with 
maintaining continuity of purpose, are key themes in the 2018 
NASA Authorization Act recently passed out of this Committee on 
a bipartisan vote.
    Section 202 of the Act on the ISS transition reflects a 
balance, and provides authority and guidance to the 
Administration to carry out the initial steps of its ISS 
transition plans but does so on a limited basis. It explicitly 
limits authorization to carry out the initial exploratory steps 
of the Administration's plan to fiscal year 2019. Section 202 
of the 2018 NASA Authorization Act is good policy that provides 
a strong foundation for Congress and the Nation as we take our 
very next steps with the ISS and America's future human 
presence in LEO.
    Four criteria that we may consider for evaluating success 
of an ISS transition: First, the United States must preserve 
its global leadership in space, and this means preserving our 
international partnerships as we continue forward. Second, our 
presence in LEO should support our journey to the Moon and 
beyond. Third, staying in LEO should not preclude further human 
exploration for economic or other reasons. And fourth, as 
necessary to meet our national interests, we should maintain a 
regular American human presence--and whether public or private, 
whether permanent or periodic--in LEO.
    I can tell you that failure is not an option. I can also 
tell you that there are not a lot of scenarios in which a few 
billion dollars per year can magically be added to NASA's human 
spaceflight program. Therefore, we have only one option. We 
must figure out how to lead and cooperate with our private and 
international partners to make human presence in LEO 
sustainable. With commitment, we can successfully transition 
the ISS while maintaining American leadership in human 
spaceflight.
    In closing, I am proud that America has led and will 
continue to lead the human exploration of the cosmos. I will do 
everything in my power as Chairman of the Subcommittee to 
support NASA and American leadership in human space 
exploration.
    I thank the witnesses for their attendance, and I look 
forward to your testimony. Thank you, Mr. Chairman, and I yield 
back.
    [The prepared statement of Mr. Babin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Mr. Babin.
    And the gentleman from California, the Ranking Member of 
the Space Subcommittee, Mr. Bera is recognized.
    Mr. Bera. Thank you, Mr. Chairman, and thank you to the 
Ranking Member.
    You know, obviously this is an incredibly important 
conversation that we're having in terms of what the transition 
plan is and I look forward to the testimony of the witnesses.
    There's broad consensus and agreement both from the 
Administration and from Congress that as a stretch mission 
we're looking at human exploration and travel to Mars, as my 
colleague from Colorado would say, by 2033. And I think that is 
a good goal to set because, again, you know, much as we did in 
the age of the Apollo missions, we didn't know how we were 
going to go to the Moon, let alone how we were going to come 
back, but we set a goal. We put resources towards that goal. We 
worked towards it, and we accomplished it. And now, we're 
setting a stretch goal to get to Mars again by 2033.
    As we set that goal, we don't know exactly how we're going 
to get there. We don't know exactly how we're going to return. 
We don't know, as a physician, what the human consequences and 
physiological consequences of extended time in space is going 
to be extended exposure to radiation, et cetera. To address 
these issues, we have to have a lab--again, I'm going to 
approach this as an academic and as a physician to look at 
these issues. In addition, we don't know the technologies, et 
cetera. And again, we have to have some venue by which we can 
do these experiments and learn those technologies that allow us 
to go deeper into space.
    And in that sense, the ISS, its completion in 2011, has 
given us a very unique asset by which to experiment not just 
for our desire to go deeper into space. We've also been able to 
use the ISS as a unique laboratory to help us improve life on 
Earth, whether it's biomedical discoveries, whether it's other 
discoveries, it is a very unique asset. And I think that's why 
this is incredibly important for us to think about.
    Resources are always going to be tight, but how do we--not 
just if we have a workable asset in 2025. I think it would be 
unconscionable for us not to continue to say, okay, how do we 
continue to use this asset? Maybe it is what aspect can the 
commercial sector pick up? What aspect can the international 
community pick up? But clearly, there's a role for NASA as well 
and unique capabilities that only NASA can provide.
    And again, I'm glad that we are taking up this conversation 
at this point in 2018 and we're not having this conversation in 
2023. I think it's incredibly important for us to do this.
    You know, I'll also just add one other component a company 
that I had a chance to visit when I was down at NASA, Ames, to 
talk about why this is important was a company called Made In 
Space. It is working on the NASA Ames facility looking at 3-D 
printing. I'm a pretty simple--I'm a doctor, not an engineer, 
but--so 3-D printing to me is 3-D printing. But what they're 
actually doing is what is 3-D printing in a low-gravity 
situation? How does that impact things?
    And some of the remarkable stuff that they're doing is 
they're also if we have a lunar mission and return to the Moon, 
you know, if they simulate the indigenous materials on the Moon 
to do 3-D printing to use that to build whatever habitats on 
the Moon, that's pretty remarkable. What that allows us to do 
is travel with much lighter payloads if eventually we want to 
create something on Mars. Again, you can't move all those 
payloads and move all the material, but if you can go to Mars 
taking the indigenous materials, use that as your building 
blocks for whatever you're constructing, those are the 
technologies that, again, you can try to experiment on Earth, 
but it would be much better to be able to simulate that and 
build all of that in space.
    So I think the ISS, as someone who wants to figure out how 
we extend the life of the ISS and make this a workable asset 
until we have an adequate replacement at some time in the 
future, is something that Congress ought to support. And again, 
I look forward to hearing the testimony of the witnesses as we 
think about this transition plan.
    And, again, kudos to the Chairman and Ranking Member for 
having us engage in this conversation in 2018 and not 2033 or 
2023. Thank you. We'll be on Mars in 2033.
    [The prepared statement of Mr. Bera follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Mr. Bera.
    Before I introduce our witnesses today, I'd like to welcome 
back a former Member of the Committee, and that is the 
gentleman from Alabama Gary Palmer to my----
    [Applause.]
    Chairman Smith. Oh, listen to the enthusiastic response. 
Gary was a Member of the Committee from 2015 to 2017, took a 
brief leave of absence, but he's returned to the fold, and so 
we welcome him back to the Committee.
    I might also say--and I'll introduce her at our next 
hearing, she wasn't able to come today--but Debbie Lesko, the 
new Member from Arizona is also a member of the Science 
Committee, and we'll introduce her at the proper time.
    But, Representative Palmer, welcome back to the Science 
Committee.
    Our first witness today is Mr. William Gerstenmaier, 
Associate Administrator of the Human Exploration and Operations 
Mission Directorate at NASA. He provides strategic direction 
for all aspects of NASA's human exploration of space and 
programmatic direction for the continued operation and 
utilization of the ISS.
    Mr. Gerstenmaier began his NASA career in 1977, performing 
aeronautical research, and has managed NASA's human spaceflight 
portfolio since 2011. He received a Bachelor of Science in 
aeronautical engineering from Purdue University, and a Master 
of Science in mechanical engineering from the University of 
Toledo.
    Our second witness today is Dr. Bhavya Lal, Research 
Scientist at the Science and Technology Policy Institute at the 
Institute for Defense Analysis. STPI was established by 
Congress to support the White House Office of Science and 
Technology Policy and other executive agencies. At STPI, Dr. 
Lal leads analysis of space technology strategy and policy for 
OSTP and the National Space Council, NASA, FAA, and other 
space-oriented federal agencies and departments.
    Dr. Lal holds a Bachelor of Science and a Master of Science 
in nuclear engineering from MIT, a second Master of Science 
from MIT's Technology and Policy Program, and a Ph.D. in public 
policy and public administration from George Washington 
University.
    Our third witness is Dr. Elizabeth R. Cantwell, CEO of the 
Arizona State University Research Enterprise and Professor of 
Practice in the School for Engineering of Matter, Transport, 
and Energy. Dr. Cantwell is responsible for leading the 
creation, management, and capture of large-scale externally 
funded programs and projects that advance the university's 
research enterprise.
    Dr. Cantwell earned a Bachelor of Arts in human behavior 
from the University of Chicago and a Master of Business 
Administration from the University of Pennsylvania's Wharton 
School. She also earned her Ph.D. in mechanical engineering 
from the University of California Berkeley.
    We welcome you all, and look forward to your testimony. 
And, Mr. Gerstenmaier, we'll begin with you.

             TESTIMONY OF MR. WILLIAM GERSTENMAIER,

                    ASSOCIATE ADMINISTRATOR,

                       HUMAN EXPLORATION

                AND OPERATIONS DIRECTORATE, NASA

    Mr. Gerstenmaier. Thank you very much for allowing me to 
participate in this important hearing on America's human 
presence in low-Earth orbit.
    The ISS has accomplished amazing things and transformed the 
way that we see human spaceflight. Crews have lived 
continuously on the ISS for almost 18 years. The ISS has 
enabled groundbreaking research that has benefited all of us. 
The ISS has helped NASA prepare for deep space missions. The 
ISS has allowed us to maintain a leadership role in 
international spaceflight.
    The International Space Station partnership has developed 
voluntary standards such as the international docking standard 
that could transform spaceflight for decades to come. These 
standards will allow anyone to be part of spaceflight by simply 
designing to these standards. The cooperation of the ISS 
partners is absolutely amazing and serves as an example of a 
diverse community working together for common goals.
    Lastly, the ISS has enabled innovative U.S. companies to 
reinvent the launch industry. Further crew private sector 
development, crew transportation systems, with the aid of NASA, 
are about ready to go fly. With all these amazing 
accomplishments from the ISS, it is only fitting that we take 
time to seriously plan for the transition of ISS in low-Earth 
orbit.
    NASA is preparing to secure the Nation's long-term presence 
in low-Earth orbit by partnering with industry to develop 
commercial orbital platforms and capabilities that the private 
sector and NASA can utilize after the cessation of direct U.S. 
federal funding for ISS by 2025.
    To be clear, NASA is not abandoning low-Earth orbit. We 
must ensure the right pieces are in place to maintain an 
operational human presence in low-Earth orbit whether through a 
modified ISS program, commercial crew--commercial platforms, or 
some combination of both government and commercial platforms. 
We are asking industry, academia, and others through a series 
of funded studies to provide ideas for utilizing the unique 
properties of space and creating commercial opportunities. We 
will work with the Space Council and the Department of Commerce 
to help with the transformation of low-Earth orbit. We have 
also proposed funds in the 2019 budget to support this 
transition.
    NASA looks forward to working with the Congressional 
stakeholders, other government agencies, researchers, private 
industry, and our international partners on the future of ISS 
in low-Earth orbit to ensure that the United States maintains 
our human presence--our human leadership in space.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Gerstenmaier follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. Thank you, Mr. Gerstenmaier.
    And Dr. Lal?

                  TESTIMONY OF DR. BHAVYA LAL,

                        RESEARCH STAFF,

            SCIENCE AND TECHNOLOGY POLICY INSTITUTE

                      FOR DEFENSE ANALYSIS

    Dr. Lal. Chairman Smith, Ranking Member Johnson, Chairman 
Babin, Ranking Member Bera, and members of the committee, thank 
you for the opportunity to testify today.
    NASA's fiscal year 2019 budget proposes to end direct 
financial support for the International Space Station by 2025 
and transition to a commercially operated low-Earth orbit 
capability. This transition can occur in two primary ways. The 
ISS can be privatized, as in all or parts of it can be taken 
over by a private entity and operated on behalf of the 
government, much like most DOE labs are today. Alternatively, a 
private-sector entity could build, launch, and operate a 
commercial LEO-based platform for profit.
    In a recent study conducted at the Institute for Defense 
Analysis Science and Technology Policy Institute, my 
colleagues, including Keith Crane, Benjamin Corbin, Reina 
Buenconsejo, and I addressed this second option. Could a 
privately owned and operated permanently crewed space station 
that will look nothing like the ISS generate sufficient 
revenues to cover its capital and operations costs without 
government subsidies? Our analysis identified 21 activities 
that could generate revenues from commercial or government 
customers on a LEO platform. We interviewed over 70 subject 
matter experts and built models to estimate the potential 
revenues that could be generated for each activity. We also 
estimated the cost of two possible configurations of a station 
that could house all of these activities.
    Our estimates of revenues and costs incorporated many 
assumptions, the most critical of which was a 50 to 75 percent 
reduction in the price of launch in the 2025-and-beyond time 
frame. Even with these aggressive assumptions, and three of the 
four scenarios we postulated, revenues did not cover costs. 
Venture capitalists we spoke to indicated that projected 
revenues streams are too far in the future and too uncertain to 
warrant making significant investments to date. Overall, our 
analysis showed that it is unlikely that a commercial space 
station would be economically viable by 2025.
    There are some caveats that go with the finding. Some 
markets for space station-based products and services could 
experience more rapid growth than we assumed, and revenues 
could be greater than estimated. There is also a risk that 
products or services that are projected to generate large 
revenues might fail to do so. The growing availability of 
suborbital and parabolic flight opportunities, as well as 
temporary un-crewed orbital capsules could both take away 
potential business away from a permanent station and at the 
same time provide an onramp to develop new markets.
    Last but not least, possible future Chinese or Russian 
space stations subsidized by their respective governments could 
also draw business opportunities away from a private space 
station.
    If a permanently crewed commercial space station in LEO is 
a critical element of United States leadership in space, 
without a ready commercial case in place by 2025, there are at 
least three options that merit further exploration. The ISS 
could be extended through 2028. Continuing to operate, 
maintain, and resupply the station will cost about $3-4 billion 
a year, which would take resources away from deep space 
exploration and affect the timeline for a return of U.S. 
astronauts to the Moon. It may also take away opportunities 
from a rapidly burgeoning private sector that feels ready to 
lead activities in LEO.
    The ISS or modules within it could be privatized with a 
private-sector entity operating the station but paid for 
largely by the government. Depending on how the deal is 
structured, this could in principle yield cost savings, 
although that cannot be assumed. As interviewees in our study 
indicated, the station was not designed to be operated 
inexpensively, and maintenance costs are likely to increase as 
elements are operated past their design lifetimes.
    Third, NASA could select a private entity to operate a 
commercial platform and rent space or request services as a 
tenant. While this option is best suited to help LEO 
commercialization, it will likely require some level of a 
government subsidy for the commercial operator. In our 
analysis, an annualized payment of about $2 billion could cover 
the cost of the platform even in the case of zero revenues. A 
deeper dive into the tradeoffs among these options may be 
crucial before any permanent decisions on America's post-2024 
LEO plans can be made.
    Thank you for the opportunity to share our analysis, and I 
look forward to any questions you have.
    [The prepared statement of Dr. Lal follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Lal.
    And Dr. Cantwell?

            TESTIMONY OF DR. ELIZABETH R. CANTWELL,

                 CEO, ARIZONA STATE UNIVERSITY

                  RESEARCH ENTERPRISE (ASURE);

                     PROFESSOR OF PRACTICE,

               SCHOOL FOR ENGINEERING OF MATTER,

          TRANSPORT & ENERGY, ARIZONA STATE UNIVERSITY

    Dr. Cantwell. Good morning, Chairman Smith, Ranking Member 
Johnson----
    Chairman Smith. Is your mic totally on there?
    Dr. Cantwell. Good morning.
    Chairman Smith. There it is.
    Dr. Cantwell. Sorry, I always hear myself as very loud.
    Chairman Smith, Ranking Member Johnson, good morning. 
Members of the Committee, Mr. Babin, Mr. Bera, it's a pleasure. 
Thank you for inviting science to the table. I appreciate the 
opportunity to submit testimony and participate in the 
discussion.
    This is timely as the science community has just seen the 
delivery of the National Academies' report, a midterm 
assessment of implementation, and of the decadal survey of life 
and physical sciences research at NASA, which reviews the 
health and progress of the life and physical microgravity 
science portfolio in space.
    I was Chair of the original decadal science study, which 
was delivered in 2011, and I currently sit on the Oversight 
Committee for this science portfolio within the National 
Academies. And I'm also a Chair of the National Academies' 
Science and Engineering Board. So I make the following 
comments.
    The United States is not conducted human operations on an 
extraterrestrial planetary body for close to 50 years. The 
opportunity to do this again and to have a meaningful life and 
physical sciences research program that enhances our ability to 
go back to the lunar surface and even further is frankly 
thrilling. The Committee has heard a lot over the years about 
how the NASA-funded portfolio of life and physical sciences and 
microgravity has enabled our exploration missions, brought 
value to our lives on Earth and brought entirely new 
discoveries that have yielded new thinking for space and 
terrestrial efforts.
    Today, I'll discuss the implications of a potential shift 
to private-sector platform providers as part of an increasingly 
privatized LEO ecosystem and how this might be part of a 
continuing and successful microgravity sciences program if 
properly incentivized.
    The ISS is now a fully functioning science laboratory. It 
has a well-trained crew that understands the conduct of 
science. NASA has invested millions in building world-class 
research hardware assets. We should not waste these assets.
    It's additionally true that some microgravity and human 
spaceflight-related studies may well be suited for platforms 
other than the International Space Station, particularly if 
other long-duration platforms are available. Understanding the 
full cost of research asset investment, especially in the 
context of potential new costing and pricing paradigms that 
could be created during a transition from NASA-funded 
International Space Station to some of the options that Dr. Lal 
talked about should be developed for NASA-supported science and 
technology in LEO and should enable a range of space platforms, 
analogs, and even ground-based facilities.
    So far, it is almost always the case for discovery science 
and for unique mission-focused investigations, as NASA's 
exploration mission needs are, there is no commercial poll for 
the microgravity research portfolio. If NASA intends to 
purchase ISS or long-term LEO capabilities, what is now 
important is that microgravity exploration research be part of 
a coherent transition plan, a plan that understands that 
business models for research are not the same as those driving 
commercial interests and a plan that recognizes the different 
perspectives on incentives for research. This could prevent 
unanticipated and frankly unrecoverable gaps in research 
capacity, and I particularly focus on the development of STEM 
workforce associated with those capacities.
    Finally, ISS research has not yet completely addressed the 
highest priorities of our decadal studies. The mid-decadal, 
which was published just recently, categorically finds that 
long-term microgravity studies are still lacking. Quoting from 
that study, ``With the totality of human exploration experience 
beyond LEO restricted to the Apollo era and the limited number 
of long-duration experiments conducted to date on the 
International Space Station, the need for microgravity and 
radiation space science is a strong now as ever.''
    For exploration missions beyond LEO, we still need to 
better understand and better mitigate the long-term effects of 
spaceflight environments on both the biological and physical 
systems involved in extended missions in deep space and 
enabling operations in human performance without resupply on 
timescales measured in years. There is absolutely a need for 
integrated long-duration experimentation well beyond 2024.
    As stakeholder conversations are developed regarding this 
ISS transition process, we feel it's critical to include our 
research community, especially as decisions about new 
commercial pricing structures are made.
    Thank you very much for the opportunity.
    [The prepared statement of Dr. Cantwell follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Chairman Smith. Thank you, Dr. Cantwell.
    Let me recognize myself for questions and start off by 
addressing one to all of you all.
    And the question is this, and I hope you'll be very 
specific in your answer, and that is what should we do about 
the ISS after 2024? Let me set this up and frame the question 
in a larger way. You've got NASA's budget at $20 billion, about 
one half of one percent of our federal budget. We spend about 
$3.5 billion a year on the International Space Station. We 
cannot have a lunar mission, we cannot continue our exploration 
into deep space, unless we significantly increase that budget, 
which we should not presume that we are able to do. Therefore, 
we have to make some tough decisions. We cannot have it all. 
Federal funding is not unlimited.
    I know the Administration is looking towards on the 
transition that the United States would be more of a customer 
than an operator, but if that is still going to cost us upwards 
of $2 billion, that's not much of a saving. That's not going to 
get us back to the Moon. It's not going to get us elsewhere. So 
what do you think we should do about the International Space 
Station after 2024? And Mr. Gerstenmaier, let's start with you.
    Mr. Gerstenmaier. Okay. I think as we've kind of discussed 
earlier and you can see in the transition report, we see the 
need for a continued activity in low-Earth orbit for an 
extended period of time. I think, as we heard from some of the 
other witnesses here, that there's a need for a continuous 
presence to do research. We're not done in low-Earth orbit. It 
enables what we need to do in deep space. Some of the systems 
that we're going to be using to go beyond the Earth-Moon system 
or use in the vicinity of the Moon, those absolutely need to be 
tested on space station.
    Chairman Smith. Okay. What is our continuing presence in 
low-Earth orbit going to cost us?
    Mr. Gerstenmaier. Again, I think that's what we need to 
start really working very hard now to go look at these models 
that were described earlier. We need to take serious steps 
forward. I mentioned earlier in my testimony that we're going 
to do these as commercial companies for studies to come back, 
show us their business plan, show us their market analysis----
    Chairman Smith. Okay.
    Mr. Gerstenmaier. --show us what we think the cost would be 
for operations in low-Earth orbit----
    Chairman Smith. Okay.
    Mr. Gerstenmaier. --for NASA's defined need to----
    Chairman Smith. In order to have sufficient funds to, say, 
go back to the Moon, have a lunar mission, what would be the 
most we could spend for human presence in low-Earth orbit?
    Mr. Gerstenmaier. Again, I think you could see what we're 
able to do today with Deep Space Gateway and those activities, 
we believe we can support where we are today with space 
station, and those type of Gateway activities heading towards 
the Moon, and then as the SLS activities ramp down, the 
commercial crew activities ramp down, those development funds 
are reduced, we go into production and ops for SLS. That frees 
up funds that could be used for lunar surface activities and 
lunar landers.
    Chairman Smith. Okay.
    Mr. Gerstenmaier. So I believe roughly at the budget we 
have now, with some consideration for inflation and economic 
growth, we can support a low-Earth orbit program reduced 
somewhat and also a lunar activity program.
    Chairman Smith. Okay. And, again, you're not willing to put 
a cost on the low-Earth orbit human presence?
    Mr. Gerstenmaier. I can't give you a specific value.
    Chairman Smith. Okay.
    Mr. Gerstenmaier. I think what we need to do is see what 
comes from industry----
    Chairman Smith. Okay.
    Mr. Gerstenmaier. --see what's reasonable, and then do the 
balance--the budget analysis----
    Chairman Smith. Yes, it just--my frustration is it seems to 
me that we're continuing to think we can do it all but we're 
not willing to put a cost on anything. That's just the 
frustration.
    Dr. Lal?
    Dr. Lal. Chairman Smith, as you said, a presence in low-
Earth orbit is not the same as having an ISS, and we absolutely 
need to do everything we can to see if there's a way for us to 
be in LEO without, you know, it costing $3-4 billion a year. 
And so I look--you know, as I said in my testimony, a better 
analysis of whether privatizing existing parts of the station 
would be most--more cost-effective versus having free-flyers, 
commercial stations, and according to our study, the cost--
annualized cost of a commercial station would be about $2.25 
billion, so that's something to be thinking about.
    Chairman Smith. It's something to be considered, but then 
that's a saving of only about $1 billion, the difference 
between roughly $3.5 billion or $3.3 billion now and the $2.25 
million or whatever it might be, that doesn't seem to be to 
me--I mean $1 billion is a lot of money but it's not 
necessarily going to pay for a lunar mission and a mission into 
deep space beyond that. So I see that as maybe a distinction 
without much of a difference where it's still going to cost us 
over $2 billion. I think the savings have to be significant if 
you're going to pay for significant other missions. But do you 
want to respond to that?
    Dr. Lal. So, I mean, I was talking about the cost. There's 
also potential revenues, which could be between $450 million--
--
    Chairman Smith. Yes.
    Dr. Lal. --to $1.2 billion again. You know, we are talking 
ten years out and predictions are hard----
    Chairman Smith. Yes.
    Dr. Lal. --but, you know, the net revenue could be between, 
you know, negative--a few million to positive $700 million.
    Chairman Smith. Okay. I still wonder that we're putting off 
the hard decisions, which isn't helpful to us, but I understand 
your position, so thanks for that.
    Dr. Cantwell?
    Dr. Cantwell. I will say that--two points first. The 
science portion of the budget is minuscule, and the science 
community is relatively agnostic as to what platform is used to 
conduct the science. So we have two real challenges. One is, 
right now, the International Space Station is the only platform 
to which the U.S. science community has access----
    Chairman Smith. Right.
    Dr. Cantwell. --for long-term studies.
    Chairman Smith. Right.
    Dr. Cantwell. So we would wish to see that there were other 
options. And the way that they are funded were relatively 
agnostic about--as long as the science community's overall 
costs are included in consideration of how those new 
developments in terms of what I call business model, what's the 
confluence of our federally funded access----
    Chairman Smith. Okay.
    Dr. Cantwell. --as well as commercial support and other 
means for having U.S. presence in LEO.
    Chairman Smith. Okay. Thank you. My time is expired. 
Without objection, I'd like to submit two letters for the 
record on America's human presence in low-Earth orbit. One is 
from Dr. Gale Allen, Executive Director of the American Society 
for Gravitational and Space Research, and the other is from Dr. 
Mary Lynne Dittmar, a noted expert on spaceflight programs.
    [The information appears in Appendix II]
    Chairman Smith. The gentlewoman from Texas, the Ranking 
Member, Ms. Johnson, is recognized for her questions.
    Ms. Johnson. Thank you very much, and thanks to all of you 
for your testimony.
    As I mentioned in my opening statement, we now have an 
International Space Station transition plan that Congress 
mandated and NASA delivered. While the plan, as it is called, 
lays out several issues, it raises even more questions that 
need to be answered.
    To start with, the Administration is proposing to end 
direct U.S. financial support for the space station in 2025. 
I'd like you to comment on what that means, how much 
international input you've had, and if sufficient private 
funding is not forthcoming to compensate for the loss of that 
government support, does the Administration plan to deorbit the 
ISS? And will the Administration decide to keep the financial 
support going, and if so, how much longer? This is not just a 
U.S. decision or it shouldn't be because it's an international 
contract.
    So I'd like you to--each of you to comment on how far we've 
gone and including those stakeholders in these--in this design 
to--for the future of the ISS.
    Mr. Gerstenmaier. The International Space Station program 
has had numerous discussions with our international partners 
about the future of ISS and what our plans are beyond 2024 into 
2025. We've reached no firm decisions or discussions have not 
resulted in firm decisions moving forward. They understand what 
our thinking is and our plans.
    If you look in the transition report, in addition to the 
date and the discussion about ending direct funding in 2025, 
there's a series of principles that are called out in that 
transition report, and we think those principles are very 
important. And the international partner community agrees with 
those general principles.
    So I think we've had a discussion about what we need in 
low-Earth orbit. I think our international partners agree with 
us we need some presence in low-Earth orbit. They're also 
working with us to go build standards and also to move out into 
deep space. So they see this tension between us needing to stay 
in low-Earth orbit and willing to move human presence in the 
solar system, and we are actively engage with them in working 
those--the items that you discussed.
    Ms. Johnson. Okay.
    Dr. Lal. I guess my only comment to your question would be 
the last time the space station was extended from--in 2014 from 
2020 to 2024, it wasn't clear at all if all the partners were 
going to join us in extending the station, and it is certainly 
not clear now if they would be willing to extend, given that 
they all have plans to partner with us on deep space and lunar 
exploration plans. And that is something to--that is an 
important consideration given that, you know, some percent of 
the O&M budget of the station is paid for by the international 
partners. So their consideration is very important in this 
decision going forward.
    Dr. Cantwell. Just one comment. The science community is 
relatively inherently international and shares science assets 
on the space station. So the biggest comment I would have, the 
concern of the community is that if a transition point was 
selected and held as a matter of course that we experience a 
gap in capacity to conduct the continuity--science continuity 
is not available both for funded science in--that trains 
people, as well as the conduct of experiments.
    Ms. Johnson. Thank you. What would a private company--what 
would make the private company interested in picking up a $3 
billion annual cost of supplying, operating, and maintaining a 
part of the U.S. portion of the expense for the space station? 
Have you had any private companies express that interest?
    Mr. Gerstenmaier. I think we're starting to see onboard 
space station today interest in private companies in utilizing 
the unique properties of space for potential revenue-generating 
activities. There's been--discussed the manufacturing things 
earlier, and those look like they may have promise. We've seen 
some pharmaceutical interest, et cetera, so there's some 
beginning small interest in utilizing space for these companies 
to generate some revenue.
    I think we have to be careful when we think about what we 
continue in low-Earth orbit after the space station. We can't 
probably continue a facility as large as the space station. It 
took us a tremendous amount of time to build the space station. 
I think we'll end up with much smaller space stations. 
Transportation costs are critical, as has been discussed in 
these--by the other members here, so we need to reduce those 
costs. But I think we get the operating cost down, and there's 
potential that we could get some cost-sharing in this time 
frame. Whether they could take the full cost burden, I don't 
think so, but there could be some initial things that help 
lower the burden, and even the small savings help us advance 
what we want to do in deep space.
    Ms. Johnson. Thank you. My time is expired, but I want--if 
you'll send me the answer to this question of the private 
commercial companies who've expressed an interest in taking up 
the United States' responsibility, if you'll just mail that to 
me, I'd appreciate it.
    Mr. Gerstenmaier. Okay. We can do that. And we've 
officially requested that through this NASA research 
announcement or will be requesting it through a NASA research 
announcement for studies. We'll provide you a list of all the 
potential providers to that--or response to that.
    Ms. Johnson. Thank you.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. We're spending $3 billion a year. How much 
are our partners spending?
    Mr. Gerstenmaier. Probably $1-2 billion collectively across 
all the partners.
    Mr. Rohrabacher. And could you list those partners for us, 
please?
    Mr. Gerstenmaier. It would be Canada, Russia, Japan, and 
then the European Space Agency.
    Mr. Rohrabacher. So the total cost is more like $4.5-5 
billion a year rather than $3 billion a year?
    Mr. Gerstenmaier. Yes.
    Mr. Rohrabacher. Right. So after a certain number of years, 
now we're talking about, what, seven, eight years from now, we 
have this big chunk of metal up there and something has to be 
done with it. And there's no way that we can just turn this 
over to anyone and say, well, that's a $4.5 billion expenditure 
that you can assume the payments at this point because what's 
being done can't generate that kind of revenue. Is that 
correct?
    Mr. Gerstenmaier. Again, today's studies and today's 
analysis don't show that that revenue can be generated.
    Mr. Rohrabacher. I'm sorry, I didn't hear that.
    Mr. Gerstenmaier. Today's analysis shows that that can't be 
generated.
    Mr. Rohrabacher. Right.
    Mr. Gerstenmaier. Maybe----
    Mr. Rohrabacher. So we have other things we want to do in 
space. Are we just simply saying today that this has been--I 
mean, I was here, I remember, I don't want to brag but I think 
it was my vote in this Committee that was the pivotal that 
moved the project forward all those years ago. So we just say, 
those of us who were here and involved in this project, ``well, 
it was worthwhile, it's run its course, time to leave it 
behind?'' Is that what we're talking about?
    Mr. Gerstenmaier. I mean, this is precisely why the 
Administration took the position that it did. We think now is 
the time to start looking at what options are available to us, 
see what we can get from the private sector, see what they can 
do, ask them for their ideas. Are there smaller instantiation 
of space station? Could they use of piece of space station to 
satisfy their needs and leverage and build an economy in low-
Earth orbit? Now is the time to start that planning so in the 
next seven years we can have an approach and we can understand 
what the residual cost we still need to carry on our side and 
what can be carried by the private sector and how it can meet 
our needs.
    So I think the reason we took the position we did in the 
transition report and set the date of 2025 was essentially to 
begin a serious discussion to make sure that we are ready to 
transition low-Earth orbit in some entity to a sustainable 
thing that meets all the objectives and gives us the benefit 
out of low-Earth orbit that we absolutely need for deep space, 
and now is the time to work that. I think we have enough time 
in front of us. We'll ask the private sector to get creative 
and innovative and help us figure out what to go do. We know 
the major drivers and costs in the model and we can turn that 
over to the private sector and see if they can come up with 
ways to address some of those cost and reduce them and see 
where we end up in the next seven years or so.
    Mr. Rohrabacher. Do either of you have a comment on that?
    Dr. Lal. I guess I would just like to say that when folks 
talk about commercial station, they're not talking about 
something as big as ISS. You know, the commercial stations that 
we learned about in our study were 1/3 the size of the ISS, 
more like the Skylab. They were 1/20 the mass of the ISS. And 
with those kind of platforms, it is feasible to generate 
adequate revenues that with, you know, some amount of, you 
know, government payment that they could be commercially viable 
but not ISS-sized.
    Dr. Cantwell. Very quick comment. In the science community 
what we've seen over the last six years is what I will 
characterize as the CASIS experiment, and it has absolutely 
yielded an increasing level of understanding and knowledge 
about how some components of the ISS capacity can be attractive 
to commercial entities.
    So I would point to two things. One is it takes a little 
time, and the other is that we do have the capacity to begin to 
look at these things from--I won't call them experiments but we 
can query the commercial sector and get good answers.
    Mr. Rohrabacher. Let me just note that this project has 
been an interesting project to follow all the way through, as I 
have. It indicates one thing, that we have learned how to 
construct big projects in space, which could well serve 
humankind in the future. And I believe that we have lots of 
challenges that we need--I've been trying to always remind 
people that we could see an asteroid heading toward the Earth, 
and we need to be able to deflect something like that threat. 
There are things that we will be capable of in the future that 
we're not capable of now, and it might require us to have these 
skills that we've developed in a major construction project in 
space.
    So I'm watching and, Mr. Chairman, I want to thank you for 
your leadership over these years in this project. And I like 
the answer. The fact is we're looking ahead now and we want to 
have as many creative ideas as we possibly can to meet this 
challenge so that this--what's left of the space station's 
mission is not a waste. But so far, we've learned a lot, and 
thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    And the gentleman from California, Mr. Bera, is recognized.
    Mr. Bera. Thank you, Mr. Chairman.
    I think there are a couple truths here that I think, Dr. 
Cantwell talked about one truth, which is from the scientific 
community they're agnostic other than they need a platform 
under which to conduct these long-term experiments, whether 
it's long-term microgravity exposure or radiation exposure. And 
there ought not to be a gap in that. Again, if we we're 
articulating longer-term multi-decadal, you know, goals in 
mind.
    So as part of this conversation, ISS, no ISS, I think we 
have to say, okay, what is that replacement that allows us to 
continue from a scientific research and discovery perspective 
these longer-term studies.
    I also, just another truth, and I think as we're having 
this conversation, I don't disagree with the Chairman that 
resources are limited and we're talking about federal funding 
versus commercial versus international support in an isolated 
conversation, ISS, but I think we ought to talk about it in 
terms of the entire conversation about space because today, 
when we talk about our return to a lunar mission, it's 
different than it was in the days of Apollo where NASA was the 
launch vehicle, was the landing vehicle, was the science 
component. You know, today, you have multiple launch vehicles 
that potentially fill that piece of the lunar mission.
    You--you know, my--I suspect that we will have commercial 
landing vehicles as well, so, you know, in that context--and 
you will likely have international launch vehicles and landing 
vehicles as well, so how do we not just have the budget 
conversation in isolation around ISS but also look at, you 
know, are there ways to defray costs on the--you know, NASA by 
itself doesn't just have to do the lunar mission. There will be 
commercial and international entities in that conversation as 
well. And I think those are incredibly important.
    And I also think another component that we should not lose 
sight of is, I'm told that, thus far we've spent $87 billion in 
assembly, in development and operations of the ISS. Those are 
sunk costs that the taxpayers have already invested. We should 
not be shortsighted to say those are not costs that you're 
going to recover. If we've already spent those sunk costs, we 
ought to think about that in the context of our return on 
investment as well because, again, you don't have to replicate 
that $87 million in assembly and that should be a component 
here.
    Am I thinking about this correctly, Mr. Gerstenmaier? And 
then I'd be curious about, you know----
    Mr. Gerstenmaier. Yes, I think you bring up some very, very 
good points. And I think we also sometimes think of this as a 
lunar activity or a low-Earth orbit activity. I think we ought 
to think of it more as a combined activity. So when I talked 
about standards, if we can now build components that will 
operate on station that will be used in a lunar system, so the 
life-support systems that the crews--the next generation of 
life-support systems used on the International Space Station, 
those will be identical systems used in the lunar station. So 
there is not a one-for-one duplication in the costs associated 
with lunar and low-Earth orbit. There are effectively one 
system used in both places.
    So I think if we think about this in a broader sense, we 
can look for a sustainable plan that allows us to operate and 
look at the total budget that we have for NASA and look at it 
as an activity that we have to do both the lunar program and a 
low-Earth orbit program, don't look at them as separate 
activities, and see if we can figure out a creative way to 
utilize those together to achieve our end goal.
    Mr. Bera. Great. Dr. Cantwell, do you want to add?
    Dr. Cantwell. I would only add one really general comment 
and back it up with a little bit of fact, which is that we are, 
as a country, absolutely capable of innovating our way through 
this. We've seen it happen in the past. It is an incredibly 
challenging problem, but I do think that we can do that.
    Now, I would back that up with a little bit of a geeky 
discussion about 3-D printing in space, which we are seeing a 
manufacturing revolution, and that revolution is associated, 
quite honestly, with the full digitization of manufacturing. 
The implications of that for planetary missions are quite 
astounding, and we have only really intellectually touched 
that. While we've done a little bit of manufacturing in space, 
intellectually, the implications of that are really amazing. We 
have many examples of that kind of thing.
    Mr. Bera. Well, so let's--as we in Congress have those 
conversation in concert with NASA and others, let's make sure 
we're open to our imagination and we're looking at the full 
scope of this and that it's not just $3 billion a year of 
funding until 2024 and then we shut the lights off but it could 
even be a transition where, you know, in 2020 it's $2 billion 
and there's other sources of revenue coming in. So we shouldn't 
see it as either/or we should look at it in the entire context 
as technology improves.
    So I'll yield back. Thanks, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Bera.
    The gentleman from Alabama, Mr. Brooks, is recognized.
    Mr. Brooks. Thank you, Mr. Chairman.
    NASA's first commercial resupply services contract, or CRS-
1, awarded International Space Station cargo resupply contracts 
to SpaceX and Orbital Sciences, now Orbital ATK. At the time of 
the award, both were using expendable or one-time use launch 
vehicles.
    Commercial Resupply Services contract number two (CRS-2) 
awards were announced in 2016, with Orbital ATK, SpaceX, and 
Sierra Nevada receiving contracts. A recent audit by the NASA 
Office of Inspector General found that, quote, ``Overall, CRS-2 
costs are still projected to be roughly $350 million higher 
than CRS-1,'' end quote.
    With regards to each contractor, the audit notes, quote, 
``When compared to the cost of each contractor's final CRS-1 
mission, SpaceX's average pricing per kilogram will increase 
approximately 50 percent under CRS-2, while Orbital ATK's 
average cost per kilogram pricing will decrease by roughly 15 
percent,'' end quote. SpaceX appears to be using reusable 
launch vehicles for CRS-2.
    In your opinions, why have expected costs for SpaceX's 
reusable launch vehicles gone up so much when reusability was 
supposed to save the government money?
    Mr. Gerstenmaier. Again, I think what you're seeing here is 
kind of market forces at work. When the original CRS-1 
contracts were bid, I'm not sure the contractors really knew 
what it cost to launch cargo to space. In fact, there were no 
rockets available to do that task. So they gave us a proposal. 
We accepted that proposal, and they delivered on that proposal. 
Then, in the second round they have a better understanding of 
what those costs are, and we see some of those costs are coming 
back.
    From a government standpoint, we look at that, we look at 
price reasonableness. We got good value and good 
reasonableness. I think what it shows us is there's a strong 
tool on the government side, and that's competition. If we can 
set ourselves up in the future for future contracts and other 
activities where there's good competition, then that allows us 
to put some pressure on the commercial sector and the private 
sector to lower costs and still give us the services we need 
moving forward.
    So I think we're learning through this process of how to 
interact and how to contract and get our activities in place. I 
don't see these changes as a big deal. These are just natural 
progressions and changes that will occur through contracting, 
but we on the government side can use that to our advantage as 
we think about how we're going to get next generation of 
modules, next generation of systems used in space.
    Mr. Brooks. Mr. Gerstenmaier, if I understood you correctly 
then, it's your belief that the price increases for SpaceX were 
more market force-driven as opposed to the use of reusable 
launch vehicles versus one-time use launch vehicles?
    Mr. Gerstenmaier. That's my opinion, yes.
    Mr. Brooks. Dr. Cantwell, based on your interactions with 
industry, how do you foresee the odds of a commercially viable 
human presence in low-Earth orbit absent any government support 
doing?
    Dr. Cantwell. Caveat, the science community would be the 
place where you would not seek expert opinion on the commercial 
approach. We have, on the committees that I've served, queried 
mostly new space companies over the last three or four years, 
seeing this transition coming. And what we find--I will just 
say that what we find is a unique willingness to work with the 
science community to find ways as we progress and innovate 
these new business models to accommodate science. That has 
certainly not come to any clear conclusions at this point, but 
we do find that particularly American companies are more than 
interested in supporting American science.
    Mr. Brooks. Mr. Gerstenmaier, as I understand it, the 
inclination of the International Space Station limits its use 
for staging, assembly, or logistics for further human deep 
space exploration. Would a future human presence in low-Earth 
orbit, in a different orbit create new useful options for an 
American human presence in low-Earth orbit or is there no 
relationship regardless of the inclination?
    Mr. Gerstenmaier. The inclination directly affects the 
amount of mass you can take to orbit, but once you overcome 
that, the ability to go from a 51.6 degree inclination to the 
Moon and other activities or 28.5 is not that radically 
different going from those orbits outward, but there is a small 
impact of the launch mass impact going to the higher 
inclination orbit. So I don't see inclination as a big driver. 
It takes away some of your performance for the initial launch, 
but in the big scheme of things, either inclination can be 
workable. We've been able to work very well in the 51.6 degree 
inclination.
    Mr. Brooks. Thank you, Mr. Gerstenmaier and Dr. Cantwell.
    And, Mr. Chairman, I yield back.
    Mr. Babin. [Presiding] Thank you for those questions.
    Now, I recognize the gentlewoman from Hawaii, Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Dr. Cantwell, in reading your testimony, I was struck by 
certain things, and let me explain. You seem to have a concern 
about how we're going to start the transition. You even used 
references to research and how we go from where we are now, 
basically LEO-type of situation, into deep space. In 
particular, what I was struck by is it looked like the whole 
space station issue started like in the mid-1980s, and it--
there's negotiations going on and you finally have human 
inhabitants by the year 2000. And you seem to say in your 
testimony that, right now, we are finally now--I think are the 
exact words that you used--in a fully functioning laboratory 
with a well-trained crew that understands the conduct of 
science.
    So my concern is, as we transition from what we have now to 
a deep space kind of exploration, how long do you think we're 
going to get--to get them? How long will take for us to get 
there from what you seem to have a great concern about if I'm 
reading you correctly?
    Dr. Cantwell. So I always characterize my remarks not so 
much as concern but as pointing to those capacities that are 
necessary for science to be conducted and the general flag-
waving that says please don't forget that the science community 
needs certain things. It is a small piece of the budget but 
needs certain things in order to do the work that would allow 
us to, for instance, successfully go back to the Moon and on to 
Mars.
    So I will perhaps restate something I said a little bit 
earlier, which is that the major concern or pointer is that the 
International Space Station today--which in my remarks meant a 
fully functioning--that it is meeting all of the science 
requirements it was established to do at this point, and that 
is a relatively recent fact. All of the science assets have 
been brought up and in place, and the science that was--has 
been thought about for many years can be conducted. Now--and 
this is true in--just really in the last--the last asset was 
probably--Mr. Gerstenmaier can help better than I--but in the 
last couple of years.
    So we have an asset that can now do the long-duration 
studies. Those are the studies that will underpin and support 
our capacity to spend more than the amounts of time that we 
have had astronauts on the station, as well as to have 
equipment, engineered systems that can function for long 
periods of time without resupply, and that is as relevant to 
lunar surface operations over long durations, and then the 
studies that we will need to do to go further out.
    Just as a point of reference, we could imagine doing long-
term studies in a lunar Gateway type of platform, but it would 
cost us a lot more to get those studies out there and bring 
them back for reinvestigation.
    Ms. Hanabusa. One of these statements you made--I think 
this was in response to Congressman Bera's questioning--you 
said that basically you have faith, as a country, we can 
innovate our way through all of this. I think it was--those 
were your exact words. And I guess what I'm reading in all the 
testimonies, especially in yours, is that, you know, it's--as a 
country, we no longer seem to be talking about space in terms 
of the United States or Russia or any one country. We seem to 
have gone past that, and we are talking about science in a 
global or international way, whichever you want to talk about 
it. And this whole space exploration is also taking on that 
kind of, I guess, cooperation in order for us to succeed. It 
seems to be inherent in how we have evolved.
    Now, in light of that--and you may not be--I'm pretty sure 
you're going to respond to me that scientists are not the ones 
to respond to this, but given that, how is it that, given the 
temperature of our relationships--because this is based on how 
countries are getting along--how do you see that affecting the 
conclusion that you seem to arrive at, which is that we can 
innovate our way through all of this?
    Dr. Cantwell. So let me start with the conclusion because I 
have been party over my career--now a pretty long career--to 
innovation through difficult federal pricing challenges all the 
way to--I now work at a--what by any stretch would be 
characterized as an incredibly innovative university with 
regard to the conduct of higher education, another grand 
challenge for the United States.
    But the fact is that innovation is a mindset as much as 
anything else. We have the intellectual capacity in the United 
States, and we have--frankly, we have the dollars in the United 
States. It is a mindset. So I will say what you expected me to 
say. But I think the reason that the science community is so 
international and global is that the science community is 
driven by the marketplace of ideas. We--you know, by curiosity, 
by discovery, and by the delivery of that curiosity and those 
discovery principles into things that matter. Typically, those 
really aren't defined by national boundaries.
    Ms. Hanabusa. Thank you. My time is up, so thank you, Mr. 
Chairman.
    Mr. Babin. Thank you. And I'll recognize the gentleman from 
Texas, Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman.
    Dr. Lal--well, let me do it this way first--Mr. 
Gerstenmaier, am I saying that right? In your discussion with 
Congressman Rohrabacher, you made the statement we absolutely 
need the benefit of low-Earth orbit for deep space. Why is 
that?
    Mr. Gerstenmaier. Again, you've kind of heard it from some 
of the other panel members, but it's very difficult to do 
research and new development around the Moon. Just the 
transportation costs of getting there are much, much higher 
than they are in low-Earth orbit. The cost of doing that 
activity is much more difficult. Doing that development 
activity in low-Earth orbit is exactly the right place to do 
that, and then you can take that, and after it's developed, 
then extend it to the lunar----
    Mr. Weber. Right. Okay. So you're at--I got that. Do you 
know the ISS, what its footprint or its cubic feet is or how 
big it is?
    Mr. Gerstenmaier. It's roughly the size of a five-bedroom 
house, internal dimensions of--lengthwise, it's about the size 
of a football field.
    Mr. Weber. Weight?
    Mr. Gerstenmaier. Nine hundred thousand pounds.
    Mr. Weber. Longevity? How long does it last in space?
    Mr. Gerstenmaier. We have studies that shows that it can 
last structurally till 2028 and probably be extended beyond 
2028.
    Mr. Weber. Will it fall to Earth eventually?
    Mr. Gerstenmaier. If we don't re-boost it. Our plan is to 
either deconstruct it, bring it apart in pieces, use those 
pieces for some other application, or deorbit it essentially as 
a large piece safely into the ocean.
    Mr. Weber. Well, if you deorbit it into the ocean, does 
most of it burn up?
    Mr. Gerstenmaier. Yes, the majority of it would burn up. 
Some small pieces would probably make the surface.
    Mr. Weber. Majority--you can keep your mic on for a minute.
    Mr. Gerstenmaier. All right, sir.
    Mr. Weber. Majority being--when you say majority would burn 
up--60, 70, 80 percent?
    Mr. Gerstenmaier. Probably 90 percent or so, maybe even 95 
percent. There are several large structural components. There 
are some large structural titanium pieces and some large 
aluminum structure that probably would make the surface of the 
Earth based on our models.
    Mr. Weber. But we would still maintain the capability of 
steering that for lack of a better term into where we wanted it 
to go?
    Mr. Gerstenmaier. Yes, we would steer that such that the 
footprint would be over the Pacific Ocean, and it actually 
stretches multiple miles. We actually look at a descent profile 
that would stretch a couple hundred miles across the ocean of 
where the debris potentially could land. We've actually 
investigated that with some of our cargo vehicles. When they 
return, they also are destructively burned up. We have 
purposely lowered the angle of attack of which those vehicles 
come into the atmosphere to make them shallower, similar to 
what the station would be so we'll actually know what that 
quantified footprint is so we can enssure that when station is 
destructively reentered, it can not impact any human 
inhabitants on the Earth.
    Mr. Weber. Okay. And Dr.--you can turn your mic off now.
    Dr. Lal, would you say your report essentially ruled out 
the idea of a commercial space station and that we should 
definitely pursue privatization?
    Dr. Lal. Our report ruled out a fully commercially viable 
station as in without any government subsidies, the commercial 
sector will not make any money.
    Mr. Weber. Is it based on the space station he just 
described?
    Dr. Lal. Absolutely not. The station that we--that was part 
of our model is about 1/3 the size, 330 cubic meters rather 
than 930 cubic meters.
    Mr. Weber. It's smaller?
    Dr. Lal. A third the size, and it's also 1/20 the mass. As 
I said earlier, commercial stations--I mean, you know, space 
station's, Battlestar Galactica. We--commercial parties may not 
need that.
    Mr. Weber. Okay. Okay. Let me go to Dr. Cantwell. Do you 
think that the difference in operations among different low-
Earth orbit use cases suggests that a few smaller purposed-
built private facilities may--a few, more than one--may succeed 
where a larger general-purpose platform is not viable on a 
purely commercial basis?
    Dr. Cantwell. I'll attempt to answer that more as an 
engineer if you will go with that.
    Mr. Weber. Sure.
    Dr. Cantwell. There are operational requirements which 
could be met by a small number or even a large number of 
alternative platforms. The challenge is the cost of the people 
who are conducting those experiments on orbit, the launch cost, 
cost to get the scientific material up there and back, so we've 
recommended sort of a full-cost assessment of the needed 
science for this very reason. You can then look at can it be 
conducted in what are established as a series of platforms.
    Mr. Weber. Okay. I'm getting really low on time, but let me 
just--so if you had one in a certain orbit--I don't know how 
many miles that would be--if you expanded the next one above it 
to 10 miles, 20 miles further out, would there be benefits 
obviously in having three different layers, for example, of 
orbits?
    Dr. Cantwell. There could be for certain science. I would 
say that, again, the massive driver for all of this from a 
science perspective for human exploration missions is the 
duration of time in microgravity that studies can be conducted 
and the radiation environment so there would be a difference if 
you went high enough in the radiation environment.
    Mr. Weber. Are you able to quantify that, the difference in 
radiation and the different----
    Dr. Cantwell. I don't know that we've actually looked at it 
specifically from that perspective, but the mid-decadal study 
does characterize the radiation studies that are needed.
    Mr. Weber. Okay. Thank you, Mr. Chairman. I yield back.
    Mr. Babin. Yes, sir. Thank you.
    I now recognize the gentleman from Florida, Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman.
    Mr. Babin. Certainly.
    Mr. Crist. And thanks to our witnesses for being here 
today.
    I was Governor of Florida in the years leading up to the 
retirement of the Space Shuttle. I remember the apprehension 
with which many throughout our State viewed the end of that 
program. As it turns out, that apprehension was in fact 
warranted. Not only did the loss of the shuttle depress 
Florida's economy but it hurt the families who worked on the 
shuttle, as well as those who worked in industries supported by 
the program like tourism.
    Thankfully, Florida's blessed with the talent to innovate 
in challenging circumstances, and now, we have a thriving 
commercial space industry to fill that void. However, much like 
the shuttle, I'm sure there will be job losses or realignments 
as a result of the decommissioning of the space station.
    Mr. Gerstenmaier, what is NASA's plan for those workers and 
their families who will be affected by the transition? Will 
there be a workforce transition plan for them? And if so, when 
can we expect to see one?
    Mr. Gerstenmaier. Again, I think as we've discussed in our 
transition report, we have some principles laid out for what 
the physical facility would be in space. Then I think after we 
understand kind of what the concept is we want in space, then 
we need to start working on the terrestrial plans to provide 
for what you describe, to make sure we've got a good transition 
where they may be government jobs today, they may be private 
sector jobs today, much as you've seen in Florida, that 
transition occurred. I think we could do a better and smoother 
job of that on the ground. And so we can plan for that.
    Same thing as we move into deep space. Some of the detailed 
engineering, some of the hard sciences, there's going to be a 
new demand for new students and new engineers in those areas, 
and we can start bringing those online. So we need to do a 
phased-in transition and don't do just a stop and then wait and 
then figure out what the plan is moving forward. So we will do 
that next step of transition planning after we lay out--after I 
believe we lay out kind of our general concept of how we want 
to do exploration.
    Mr. Crist. Thank you, sir. My next question is directed to 
all the witnesses. Do you think there will be enough demand to 
support commercial activity in low-Earth orbit following the 
end of space station operations? What are the barriers to 
generating that demand? And what do you envision will be the 
primary driver of such a market?
    Mr. Gerstenmaier. I can answer a piece of it. From the NASA 
perspective, I think we have an understanding of what 
activities we'd like to continue to do in low-Earth orbit even 
beyond the station. So we need a place to train crews, to give 
them experience of operating in space. As Dr. Cantwell talked 
about, I think we need a station to do some research that's 
done close to Earth that can get there with low transportation 
costs. That augments what research we could be doing in a 
Gateway-type of activity around the Moon.
    So I think we understand the NASA demand. What we need to 
do is see if the private sector can, on their own, determine 
some demand that they want to have for research activities in 
space or from operations in space that they could get benefit 
from. Then that total combined demand, both government and 
private sector, makes up the plans moving forward. Now, we're 
going to ask in some studies for exactly that market analysis 
from companies.
    Dr. Lal. So in our study, the 21 activities we looked at, 
there were three that stood out as having, you know, solid 
demand behind them. One is optical fiber, exotic fiber, a 
second one is satellite assembly, and a third one is sovereign 
astronauts and private astronauts, so three that stood out in 
terms of demand. And with respect to the barriers, launch cost 
is the biggest barrier to a commercially viable space station.
    Dr. Cantwell. The only thing I would add is that if we 
have, as I believe we should, a continuing research presence in 
LEO, then we will--this is not probably within the next decade, 
but research tends to pull out new applications that commercial 
companies are very interested in. And the place that I would 
really point to for the likelihood of that is in materials 
science.
    Mr. Crist. Mr. Gerstenmaier, the transition report speaks 
to the importance of the space station and low-Earth orbit to 
both research entities and the commercial space launch 
industry. Would you please describe NASA's commitment to 
ensuring there will not be any gap or reduction in continuous 
crew and cargo access to the low-Earth orbit, regardless of 
platform?
    Mr. Gerstenmaier. Again, what we're looking at is we 
described--there's a budget laid out, a commercialization 
budget that starts at $150 million in 2019. That's laid out to 
try to see what is needed from the private sector in terms of 
another facility other than station or do they want to use 
space station or do they would use some combination of space 
station and another facility. To service those entities, we're 
going to need a commercial launch capability.
    As we talked about activities around the Moon, we don't 
need to go look at cargo again from a government-only program. 
We can go immediately to cargo for lunar activities at Gateway 
using commercial providers, so there's a natural meshing 
between what we've done in low-Earth orbit and what can be done 
around the Moon. They can take dramatically less cargo to the 
Moon, but it still--with the rockets they have today, they can 
get cargo that can be substantial for us and needed around the 
Moon. So I think we will take that transportation market we've 
established and figure out creative ways to use it both from 
low-Earth orbit and also for our deep space activities.
    Mr. Crist. All right. Thank you, Mr. Chairman. I yield 
back.
    Mr. Babin. Thank you very much.
    And I'm going to yield myself here five minutes for 
questions.
    The first one is to you, Mr. Gerstenmaier. There are 
approximately 1,370 civil servants and 4,725 reportable 
contractors supporting the ISS program in fiscal year 2018. 
Many are located in my district, at Johnson Space Center in 
Houston. Yesterday, you were asked in the Senate testimony how 
mission control at Johnson Space Center would be impacted by an 
ISS transition. You stated that NASA's intent is for mission 
control being conducted at Johnson Space Center for all future 
HEO programs and that there would be no major impact. I would 
like to ask you to elaborate on that for us as well in this 
hearing.
    Mr. Gerstenmaier. What I was alluding to as we talk about 
the Gateway activity around the Moon, that vehicle that will be 
around the Moon that can be in multiple different orbits around 
the Moon, it's not like a space station. It can be in different 
orbits. That will be commanded and operated from the Johnson 
Space Center through the mission control teams.
    Just as the Johnson Space Center played a critical role in 
understanding how we do rendezvous and proximity operations in 
low-Earth orbit, they set all the operating procedures for how 
that would be developed, how we routinely keep crews healthy in 
low-Earth orbit and those activities. All those things will 
carry into deep space so that fundamental research and analysis 
that needs to be done on how you use the gravity of the Earth 
and the Moon and the sun to maneuver and manipulate around to 
save propellant, all that will be done by the scientists and 
researchers at the Johnson Space Center. So that first--that 
pioneering of how we get comfortable with keeping humans in 
deep space, how we learn to essentially maneuver and manipulate 
across the gravity rivers in space to other deep space 
locations, all that will be done by the teams at the Johnson 
Space Center.
    Mr. Babin. Thank you very much.
    I think, Dr. Lal, first for you, NASA benefits from 
commercial partnerships and can help with a lot of early 
technical development, but are the medium- to late-stage 
economic development of space the responsibility of NASA, 
another part of the government, or not a government 
responsibility at all?
    Dr. Lal. That's a good question. It depends on the 
particular area. In the context of the space station, I think 
there's enough experience that this is a transition that can 
begin to happen. There are, you know, companies that have--you 
know, whose leadership has been part of NASA. NASA has learned 
lessons from the station. NASA is willing to offer expertise 
through space act agreements and other ways, so this would be 
an area where there's potentially less--little enough R&D that 
it could be outside of the government.
    And of course we're talking about operating a platform. 
There's also the launch service where we've seen that 
commercial sector can do a pretty good job. And on the user 
base, again, NASA is working on developing R&D--users of R&D in 
commercial areas or even universities where things can move 
forward without government support.
    Mr. Babin. Okay. Thank you. And then should the--and this 
is for all of you. Should the United States commit to 
maintaining a human presence--commit to it, whether public, 
private, whether permanent or periodic--in low-Earth orbit? Mr. 
Gerstenmaier, you first.
    Mr. Gerstenmaier. I think there is--
    Mr. Babin. Yes or no?
    Mr. Gerstenmaier. I think there's a need for us to stay in 
low-Earth orbit as we go beyond low-Earth orbit. So, again, I 
think as you described fairly clearly at the beginning, it's 
not an either/or situation. I think we need to do both and we 
need to figure out a way to accomplish both.
    Mr. Babin. Okay. Well, let me follow up with you while 
you've got the mic. If the United States doesn't maintain a 
presence in light of Chinese plans for a LEO space station as 
early as 2022, are we ceding U.S. leadership?
    Mr. Gerstenmaier. Again, I think we can still maintain 
leadership into deep space activities. There would be some 
potential damage if we relied on another entity for operations 
in low-Earth orbit.
    Mr. Babin. Okay. And then, I'll tell you what, I'll go to 
Dr. Cantwell next and then if I have time, Dr. Lal. Should the 
United States commit to maintaining a human presence, whether 
public, private, permanent, or periodic in low-Earth orbit? Dr. 
Cantwell very quickly?
    Dr. Cantwell. I think the opinion of my community and my 
personal opinion is yes, and the reason is that it is the most 
accessible location with which to do research of interest, and 
it is the least expensive.
    Mr. Babin. Okay.
    Dr. Cantwell. So we can do--we can get answers to our 
questions and discover new things faster--
    Mr. Babin. All right. Thank you.
    Dr. Cantwell. --if we have LEO presence.
    Mr. Babin. Thank you. Dr. Lal?
    Dr. Lal. Robert Heinlein said, ``low-Earth orbit is halfway 
to anywhere.'' I agree with him. We absolutely need to have 
low-Earth orbit presence. It doesn't have to be government-led. 
We need it for R&D on Earth, we need it for R&D for the future, 
and we need it to be as the Gateway to the rest of the solar 
system.
    Mr. Babin. Okay. Thank you. Thank you very much. And that 
exhausts my time, so the gentlewoman from Connecticut, Ms. 
Esty.
    Ms. Esty. Thank you very much, and I want to thank the 
Committee for holding this important hearing.
    I hail from Connecticut, and we actually do in my State 
provide life support services for ISS. We have a long-time 
commitment around space.
    Research aboard the International Space Station is critical 
to our journey to Mars, and an important aspect of that 
research will help us develop countermeasures, the harsh 
environments astronauts will be facing during long periods of 
spaceflight.
    And earlier last year, I met with Captain Mark Kelly and 
discussed with him the important research with his twin brother 
and the effects that we're beginning to understand about even a 
relatively short--compared to what we're talking about for a 
Mars mission--experience and exposure to microgravity.
    In Connecticut, the NASA Connecticut Space Grant Consortium 
has a awarded a grant to undergraduate students in our State to 
carry out a project called the Effect of Microgravity on 
Nanoparticle-Cellular Interaction, which aims to research the 
effects of microgravity on human health. And this project will 
use an imaging procedure to look at nanoparticles and their 
interaction with proteins in human cells and freeze them for--
in time to then capture images and assess them later.
    Now, a lot of us are concerned about what's happening about 
the wind down of ISS, and really, Mr. Gerstenmaier, for you 
first, will the essential ISS research and development needed 
to enable deep space human space exploration have been 
accomplished by 2025? And is NASA equipped to stay on track to 
complete a checklist of countermeasures on microgravity in that 
time period?
    Mr. Gerstenmaier. Our current timelines show that we can 
complete the majority of activities by 2025. There's not much 
margin in activities. And then also I think there could--
potentially is a need for some continued research for long-
duration periods even beyond the 2025 time frame.
    Ms. Esty. Do you have thoughts of how we're going to 
achieve that? Because once we don't have ISS, we don't have any 
good mechanism for studying that.
    Mr. Gerstenmaier. Again, as I think we've discussed at this 
hearing, we look for commercial platforms that can be an avenue 
to go take a look in those investigations. And we also have a 
need to understand some things needed to go beyond the Earth-
Moon system, so the Gateway that we talk about, another 
facility around the Moon, we think that also has application 
now to look at some animal models for the radiation environment 
around the Moon, et cetera, that will help us understand what 
the environment is and countermeasures for that period. So I 
think we have a continued need for research activities in 
space.
    Ms. Esty. Well, I think it's going to be very important for 
Congress and this Committee to be kept apprised of that 
timetable, and that's part of our concern frankly when we had 
the NASA reauthorization without having even reviewed the 
report about how that transition is going to go from the end of 
ISS.
    A number of us are part of the newly formed Planetary 
Caucus in Congress, and we met last week and interacted with 
stakeholders and experienced groups. And one of the issues they 
raised was the important and often under-attended-to aspect of 
cooperation between nations that's occurred because of ISS, 
something that there is absolutely no--as far as I can tell--
any indication that that is likely to happen as part of 
commercial endeavors. Would any of you care to talk about that 
as we are one sole planet--as somebody mentioned last week, we 
have no planet B.
    So part of the value of ISS it seems to me has been the 
importance of having scientists working across countries, which 
are not always friendly on all other terms, but maintaining 
that level of human space exploration, human exploration. And 
if any of you would care to comment on that because that's one 
of those pieces, again, not clearly in the jurisdiction of this 
committee but clearly in the importance and interest of the 
American people and this government and part of the planning 
frankly.
     If we're winding down ISS, how are we going to be dealing 
with intercountry cooperation on this incredibly important 
human endeavor?
    Mr. Gerstenmaier. Again, I think the space station has 
shown us that we can work together as an international 
community despite government challenges between us. And I think 
the challenge of human spaceflight, the challenge of putting 
humans in space and keeping them alive and keeping them safe 
draws us together and allows us to work together as a community 
that probably can't be accomplished in any other way.
    And the ISS partnership is tremendously strong. It has 
built international standards for new hardware and new 
equipment, which will allow any country, no matter how small 
they are, to build new hardware for deep space activities.
    We've also worked with the international community for the 
Orion service module. That's the system that propels the Orion 
in deep space that's being built by the European Space Agency. 
So we put them in a critical path for our human activities. So 
you're already seeing a start to carry forward on the ISS 
experience into deep space.
    And I think, as was discussed earlier here in this hearing, 
that any future activities in deep space will be an 
international activity, and that's only because station has 
shown that that's a viable way of cooperating and working 
together.
    Ms. Esty. I do think the concern, though, is if we don't 
have something in the interim, ISS drops out, we don't yet have 
the longer-term projects, and then we're left in the interim 
with commercial space, individual countries moving forward, and 
I think that's an under-attended-to issue.
    I know my time is expired, but that's something we haven't 
really been talking about and was really present with longtime 
partners last week saying this doesn't get discussed enough 
about the importance for the standards but frankly for this 
being a human endeavor that we engage in together.
    Thank you very much, and I appreciate the Chairman's 
indulgence.
    Mr. Babin. Thank you. I now call on the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. And, panel members, 
thank you for appearing before us today.
    The human presence in low-Earth orbit is crucial as we 
advance exploration to the Moon and beyond. And I'm concerned 
about the way monies are invested in low-Earth orbit research. 
My research indicates that roughly 60 percent of the total 
operating cost for the International Space Station is 
transportation to and from the station. Dr. Cantwell, is that 
true?
    Dr. Cantwell. I think I might--I am probably not the best 
person to ask about transportation costs, but I believe Dr. Lal 
has actually looked at this in her study.
    Dr. Lal. So, I mean, today, NASA--the ISS budget, I think 
$1 billion is operations and management and $1.7 billion is 
transportation, crew and cargo, so, yes, sounds about right.
    Mr. Higgins. All right. So the need for research is crucial 
as we look to the future for human presence in space, lunar 
orbit, lunar surface, Mars exploration, et cetera. And a great 
deal of this research can be conducted for those missions to be 
successful in low-Earth orbit, and our goal as this body and 
this Committee is to encourage the dollars to be invested in 
actual research. What can we do to decrease the expense of 
transportation to and from the research which absorbs so much 
of these dollars?
    NASA is not currently confident that private-sector 
capabilities have matured enough to satisfy NASA's needs and 
requirements for low-Earth orbit operations. Is that true, Dr. 
Cantwell?
    Dr. Cantwell. Again, this is what we heard from Mr. 
Gerstenmaier a little bit earlier today. I would say this is 
the concern of the science community, and it is not a concern 
in the sense that our hair is on fire. It is a concern that, as 
we look at the multiplicity of options for reducing the costs 
to the U.S. Government of launch and carrying things to and 
from whatever LEO objects we have, that the science community 
is part and parcel of those considerations.
    Mr. Higgins. So what steps should NASA and private industry 
take to reduce these costs to ensure the efficient commercial 
use of the ISS or whatever next-generation low-Earth orbit 
government-funded program in the post-ISS era? What steps can 
we take that we're not doing right now? Anyone?
    Mr. Gerstenmaier. Again, I think we're pursuing these steps 
as fast as we can. We're working right now with commercial 
crew, right? Probably within one year we'll have two providers 
being able to carry crew to low-Earth orbit. As we think to the 
future beyond low-Earth orbit, we think transportation is 
clearly a key driver, so we want to make sure there's not 
unique systems, that the systems used for low-Earth orbit can 
be basically the same systems used for deep space.
    We also think that the past model where we have lots of 
disposable hardware that we use, for example, in the Apollo 
program if we can use the Gateway where it now enables--t 
here's a piece of infrastructure that allows reusability in 
space. We might be able to actually even use some upper stages 
from the rockets as part of the components used to build 
facilities in space. If we start looking for creative ways 
where we--
    Mr. Higgins. Excellent. That's creative thought.
    Mr. Gerstenmaier. --utilize pieces--
    Mr. Higgins. That's what the Committee----
    Mr. Gerstenmaier. --we can lower some costs.
    Mr. Higgins. --was hoping to hear.
    Dr. Gerstenmaier, by 2024, regarding the ISS, several 
components of the ISS will be nearly 26 years old, twice as 
long as its expected lifespan. Should NASA and other U.S. 
commercial entities remain on the current ISS under a modified 
program? What safety concerns do you have regarding the aging 
components of the ISS, and what measures should be taken by 
either NASA or private industry to ensure continued safe 
operation?
    Mr. Gerstenmaier. Yes, we continually monitor all these 
systems on board space station, and we routinely change them 
out as time is needed. We've upgraded all the computer systems 
on board space station. As recently as yesterday, we did a 
spacewalk, and what we did with that spacewalk is we located 
some pump packages in a region where they can now be changed by 
robotic activities on station. So if one of these pump systems 
goes down or breaks, we don't have to do an emergency spacewalk 
with crews. These are now positioned in a location where we can 
replace that pump that failed robotically from the ground and 
restore full functionality of the station.
    So the teams are continually looking forward to figure out 
ways that they can lower the risk, understanding the components 
may break and they may fail. We'll have replacement components 
on board. We'll have staffing or spares available to go replace 
those components as needed and upgrade as needed.
    Mr. Higgins. Thank you for your very thorough answer.
    Mr. Chairman, my time is expired. I yield.
    Mr. Babin. Yes, sir. Thank you. And this concludes our 
hearing today. I want to thank each and every one of you 
excellent witnesses. We really appreciate it, and the great 
questions from our Members up here.
    The record will remain open for two weeks for additional 
written comments and written questions from Members.
    So with that, this hearing is adjourned.
    [Whereupon, at 11:42 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
